<html>
<title> - CHALLENGES AND OPPORTUNITIES FOR THE U.S.-SAUDI RELATIONSHIP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








                 CHALLENGES AND OPPORTUNITIES FOR THE 
                        U.S.-SAUDI RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2017

                               __________

                           Serial No. 115-40

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-839PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 




















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Joseph W. Westphal, senior global fellow, The 
  Joseph H. Lauder Institute of Management and International 
  Studies, University of Pennsylvania (former United States 
  Ambassador to the Kingdom of Saudi Arabia).....................     9
The Honorable Gerald M. Feierstein, director for gulf Affairs, 
  Middle East Institute (former Principal Deputy Assistant 
  Secretary for Bureau of Near Eastern Affairs, U.S. Department 
  of State)......................................................    17
Ms. Karen Elliott House, senior fellow, Belfer Center for Science 
  and International Affairs, John F. Kennedy School of 
  Government, Harvard University.................................    28
The Honorable Tom Malinowski (former Assistant Secretary for 
  Democracy, Human Rights and Labor, U.S. Department of State)...    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Joseph W. Westphal: Prepared statement.............    12
The Honorable Gerald M. Feierstein: Prepared statement...........    19
Ms. Karen Elliott House: Prepared statement......................    30
The Honorable Tom Malinowski: Prepared statement.................    39

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    66
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Subcommittee on the 
  Middle East and North Africa: Letter submitted for the record..    68
The Honorable Ted Lieu, a Representative in Congress from the 
  State of California: Letters submitted for the record..........    71

 
      CHALLENGES AND OPPORTUNITIES FOR THE U.S.-SAUDI RELATIONSHIP

                              ----------                              


                         TUESDAY, JUNE 13, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come it order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses.
    Thank you, ladies and gentlemen.
    And, without objection, the witnesses' prepared statements 
will be made a part of the record and members may have 5 days 
to insert statements and questions for the record subject to 
the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes. This 
hearing has become especially timely. In recent days, Saudi 
Arabia, the UAE, Egypt, and Bahrain have taken serious 
diplomatic actions against the Gulf Cooperation Council (GCC) 
nation of Qatar. This move surely raised a lot of eyebrows, but 
it shouldn't come as a surprise. Many of us on this 
subcommittee have been calling attention to Qatar's history of 
financing terror, including its support for Hamas and its 
unwillingness to enforce existing sanctions against individuals 
within its borders.
    In fact, nearly 3 years ago, this subcommittee held a 
hearing on Qatar's support for Hamas and other extremist 
groups. We raised many of the same issues that Saudi Arabia, 
UAE, Egypt, and Bahrain also have raised. Shortly after the 
hearing, I sent a letter along with Ranking Member Deutch and 
Ted Poe and Brad Sherman and signed by 20 other colleagues of 
the Foreign Affairs Committee to the Treasury Department in 
2014 urging more action against Qatar and Turkey for their 
roles in terror financing.
    And, with no objection, I would like to include this letter 
into the record.
    Qatar has long been a permissive terrorist financing 
environment, and if nothing else, this Saudi-led response will 
at least get the conversation started. This is the same Qatar 
which was entrusted to monitor the Taliban Five, even though we 
knew it continued to fund ISIS, Hamas, the Taliban, the Muslim 
Brotherhood, and countless other extremist groups. This is a 
conversation that we need to be having. We cannot continue to 
allow Qatar to get away with all that it does against our 
interests, just because we worry about the consequences of our 
U.S. base station there. Of course, it is an important 
consideration, but let's not make it the only consideration, 
much like we shouldn't be overlooking Turkey's support for 
terror groups like Hamas because Turkey is a NATO ally that 
houses also a large U.S. military base, or Turkey's negative 
impact throughout the region working against our interests, 
which includes the unhelpful measure its Parliament approved 
recently to send troops to Qatar, a move that will surely upset 
our partners in the region. And while it is true that Saudi 
Arabia has presented us with similar problems in the past, the 
Kingdom has prioritized its security cooperation efforts with 
the U.S. to fight extremism.
    During the previous administration, there seemed to have 
been a concerted effort to realign not just our traditional 
alliance with Saudi Arabia, but to elevate Iran, a U.S.-
designated state sponsor of terror. We are all too familiar 
with the quote attributed to President Obama in an article last 
year where he insisted that Saudi and Iran should ``share the 
same neighborhood and institute some sort of cold peace.'' And 
I ask: Share the neighborhood with the foremost state sponsor 
of terror; how is that a good plan for regional stability? 
Because while Saudi Arabia is a key partner in our effort to 
fight ISIS and violent extremism, Iran has worked at every turn 
to undermine the stability of the region and foment terror.
    From its support of the Houthis in Yemen to its support of 
Hezbollah, a group which the Arab League, led by Saudi Arabia, 
designated as a foreign terrorist organization last year, and 
its support for Assad in Syria, Iran is working against almost 
every objective we share with Saudi Arabia. It is no secret 
that, in the lead up to, during, and after the Iran nuclear 
deal, the JCPOA, our relations with Saudi Arabia and the rest 
of the GCC were strained and we were viewed with mistrust as 
having abandoned our allies for Iran.
    I hope that the President's recent trip shows that we 
perhaps have turned that corner. That is not to say we should 
turn a blind eye to the Kingdom's shortcomings, particularly 
its troublesome human rights record. On women's rights more, 
much more needs to be done, my goodness, to ensure a more 
inclusive society. Instead of arresting opposition dissidents, 
the Kingdom must allow for the free exchange of ideas and a 
free space for all Saudi citizens to express their thoughts. 
Instead of jailing human rights defenders and activists, and 
those calling for reform, the Kingdom must welcome their calls 
and listen to ideas in order to implement real reforms.
    The Saudis allege that their Vision 2030 plan will do just 
that. With the Vision 2030 plan, Saudi Arabia has shown that it 
recognizes that it can no longer rely on its old model of 
governance. We all know there is a large youth population in 
Saudi Arabia, and if we see the Vision 2030 start to take shape 
and strengthen the viability of Kingdom's future, we have a 
better chance of steering them away from extremism.
    I look forward to hearing from our panel, who between them 
have a wealth of knowledge and experience with the intricacies 
of the U.S.-Saudi alliance on how we can advance our own 
national security interests and objectives in the region 
together with the Saudis.
    I now turn to the ranking member, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    Thanks to our truly esteemed panel for being here today and 
thanks to every one of you for your service.
    We are greatly appreciative of the work of our American 
diplomats. And I hope that we continue to rely on the 
experienced diplomats and recognize the importance of 
diplomacy. I know we have an opportunity to show that as we 
move into the budget season.
    Our relationship with Saudi Arabia is no doubt vital to the 
Middle East. We should be clear from the outset that we are 
allies and we share common goals. But we should be honest in 
assessing where those goals and interests diverge.
    The President's trip to Saudi Arabia was welcomed. Few 
could argue that this President needs to do outreach to the 
Arab world. The visit provided a clear message to Iran that the 
United States stands united with our Gulf allies against its 
dangerous and destabilizing behavior in the region. The 
affirmation of cooperation on counterterrorism and a commitment 
to increasing regional interoperability and bolstering the 
defenses of our allies were important signals to send.
    But the President's decision to focus solely on security 
issues was a mistake. While Saudi Arabia has made slow progress 
on human rights, failing to acknowledge abuses occurring in the 
Kingdom gave the impression to the world that the United States 
is willing to forsake human rights, justice, and equality when 
the messaging is inconvenient.
    It is true that reform has begun, albeit slowly, and we 
should praise and encourage those reforms, particularly when it 
comes to women's rights. Raising human rights is not about 
lecturing another country, it affects all aspects of our 
relationship. Foreign businesses are skittish to enter a 
country where they fear corruption or lack of transparency.
    This kind of investment and diversification is critical to 
the Saudi's Vision 2030, which we should be actively 
supporting. Jobs for youth and the middle class are key to 
economic stability, which, as we have seen across the region, 
in turn helps stem the tide of extremism.
    Moreover, the administration's visits seem to empower the 
Saudis and others to move ahead with a very public split from 
Qatar. Qatar's behavior has been problematic and we have long 
struggled to rein in its affinity for harboring terrorists. We 
should push back against Al Jazeera's biased coverage and 
promotion of groups that destabilize its neighbors. Qatar's 
relations with Iran are clearly troubling for a region in which 
Iran seeks to sow instability. However, I am concerned that 
this crisis could have negative impacts on our interests, 
particularly the operation of the U.S.-led collation fighting 
in Syria.
    Today gives us an opportunity to unpack some of these 
issues, like what leverage we have with respect to Qatar's 
support of terrorism and the importance of unity in the GCC to 
U.S. strategic objectives. We should be viewing our 
relationship with Saudi Arabia through the prism of our own 
interests. How mutually beneficial is our relationship? Where 
do our priorities align?
    The Saudis have been preoccupied with their campaign in 
Yemen, which they rightfully see as a direct threat to their 
national security. The U.S. is right to support the defense of 
Saudis' borders, instability inside the Kingdom will threaten 
the region, and we share the concern that Iran is using the 
Houthis as a proxy. But in terms of our own national security, 
it has long been AQAP operating in Yemen that has been thought 
to be the most dangerous branch of al-Qaeda.
    The conflict in Yemen has also taken the Saudis' and 
others' attention away from the fight against ISIS, arguably 
our greatest threat at this time. Ambassadors, I know you have 
been intimately involved in trying to resolve the Yemen 
conflict over the past 5 years. If no political solution is on 
the horizon, how can we best support the Saudis while ensuring 
that the laws of armed conflict are obeyed? Without being a 
formal member of the coalition, what leverage do we really 
have? And I have been deeply troubled by the reports of 
civilian casualties throughout this campaign.
    The decision to move forward with the sale of precision-
guided missiles has raised a host of issues surrounding the 
Saudis' capabilities to use these weapons in a way that 
minimizes collateral damage. I am not sure that Congress has 
been convinced that these weapons can be used appropriately. 
Our colleagues Mr. Lieu and Mr. Yoho have been leading the 
effort here to get an accurate assessment of the progress that 
the Saudi Royal Air Force has made in its adherence to a no-
strike list and, frankly, have yet to receive adequate answers 
from the administration.
    Furthermore, I have real concerns that the sale of 
offensive weapons, like the PGMs and the announced $110 billion 
arms deal, do not provide the Saudis with the real defensive 
capabilities they need to protect and defend their borders or 
increase counterterrorism operations.
    Frankly, we don't know yet enough about the proposed sale 
or how it will affect Israel's qualitative military edge. 
Following the signing of the JCPOA in 2015, the Obama 
administration launched an effort to bolster defense in the 
Gulf. The U.S. GCC strategic partnership aimed to strengthen 
missile and cyber defense along with a host of other technical 
support from the U.S. Where are we on those deliverables that 
could help our allies defend themselves against real threats?
    Finally, being an ally does not mean being given a blank 
check. We must ensure that we are supporting our allies and 
making decisions that are in our best interest first and 
foremost. There is no shortage of issues to discuss today. We 
have certainly assembled an all-star team of experts, and I 
look forward to a very productive discussion.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch, for that 
thoughtful opening statement.
    Now we will turn to our other members for their opening 
statements, starting with Mr. Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chair.
    The U.S.-Saudi Arabia relationship has been noticeably 
strained in recent years. The degree of discord between the 
previous administration, the Obama administration, and Saudi 
leadership, was only exacerbated by a number of things: Oil 
prices, the growing threats of terrorism in the region, 
differences over the Iranian nuclear program, which I intend to 
believe that the Saudis were right and the Obama administration 
was wrong on that one. And although we may not see eye to eye 
on everything with our Saudi partners, there is no question 
that having their support in the fight against terror in the 
region is very, very important.
    I am encouraged by President Trump's trip to Saudi Arabia. 
I believe it could be a great opportunity to strengthen the 
U.S.-Saudi relationship while recognizing the Saudis' 
shortcomings in a number of areas, for example funding mosques 
across the globe, some of which have tolerated, if not 
promoted, radical fundamentalist ideology, and that has been a 
real problem. As well as the suppression of women in their own 
society; it is just intolerable and continues to be. Even 
though there have been some improvements, they are few and far 
between.
    So there is a whole range of issues that we need to focus 
on. I apologize, I have several hearings happening at the same 
time, I won't be able to stay for the whole hearing. But thank 
you for holding this important hearing.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    And welcome to our panel.
    I don't know that I agree with my friend from Ohio, though 
he and I often agree. I don't know that I am as heartened by 
the Trump visit to Saudi Arabia as he is, because I am worried 
about what was not discussed, including basic human rights, 
including the rights of women, including the suppression of the 
LGBT rights, including the right to assemble, including the 
right to have political opposition.
    Saudi Arabia has been an anchor and a counterweight to Iran 
that has served our interests and I think have served for some 
stability in that region, but that doesn't change history. The 
Saudis, at the same time, while condemning Qatari support for 
terrorism, have financed extreme Wahhabism all over the Muslim 
world. It has actually destabilized society in some cases and 
certainly been a source radicalism throughout. Fifteen of the 
19 hijackers in 2001 were Saudis. Osama bin Laden, the master 
mind of that attack, was a Saudi. We have to look at this 
relationship clear-eyed. We have interests; they have 
interests. But it is anything but a perfect or stable 
relationship.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly.
    Mr. Schneider is recognized.
    Mr. Schneider. Thank you, Madam Chairman.
    And as have my colleagues, I want to thank the panel, a 
truly extraordinary panel on a very important issue as we look 
at this region and the important relationship with Saudi 
Arabia.
    The recent announcement of the new strategic partnership 
for the 21st century obviously draws much attention. And as was 
previously stated, as we look to have this conversation today, 
I hope it will touch on the impact it is going to have in the 
region, in particular with respect to preserving Israel's 
qualitative military edge in a dangerous region, but also, as 
you have talked about in your written testimony, the importance 
of U.S. interests, our strategy. What are our priorities and 
goals? And what is the best strategy to address those? I think 
you have to look at those in the broad context of the region, 
not just, as was mentioned, with what is going on with Qatar, 
but Iran and JCPOA, Yemen, Syria, but also the generational 
challenges within Saudi Arabia and the region, in particular 
with respect to Vision 2030.
    So, again, I thank the witnesses.
    I thank the chairman and ranking member for calling this 
hearing.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    And thank you to the witnesses.
    I am going to be paying close attention to what you have to 
say. Over these last 30 years, there has been nothing more 
perplexing than our relations with countries like Saudi Arabia 
and like Qatar, realizing that, for example, as my colleague 
just said, of the hijackers, 15 of the 19 hijackers on 9/11 
were Saudis. And I happen to believe that Saudis financed 9/11 
as well. And so we need your advice as to how we should deal 
with a situation like that. What is just not the problem, but 
what is our policy going to be to take Saudi Arabia away from 
supporting terrorists and Qatar away from supporting 
terrorists? What do we do to achieve that goal? That should be 
our main goal. So thank you very much. I will be paying 
attention to your advice.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    We are so pleased to be joined by the chairman of our full 
committee, but, first, we will go to Mr. Cicilline for his 
statement, thank you.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for calling this hearing on Saudi Arabia.
    And thank you to our witnesses for being here today. I look 
forward to hearing your testimony.
    Saudi Arabia has captured our attention in many ways 
recently so this hearing comes at an opportune time. The 
President chose to make his first foreign trip to Saudi Arabia. 
And although the administration has not established a clear 
policy toward Saudi Arabia, what they didn't say sent its own 
message.
    Neither the President nor any senior administration 
officials held Saudi leaders accountable for their enduring 
reckless disregard for human rights, nor does it seem there was 
any discussion about the quickly deteriorating humanitarian 
situation in Yemen where Saudi Arabia is engaged in an extended 
campaign with U.S. support against Houthi rebels.
    Saudi Arabia's recent decision, along with other members of 
the GCC, to cut ties to Qatar, the site of the Al Udeid Air 
Base, which houses the biggest concentration of U.S. military 
personnel in the Middle East, is troubling. And the Trump 
administration's handling of this serious situation has been 
ham-fisted and confounding.
    The relationship with Saudi Arabia, a partner with whom we 
sometimes are at odds, is extremely important and equally 
complex. I look forward to hearing from our witnesses today, to 
hear their perspectives on this administration's engagement 
thus far and their recommendations for how we move forward.
    And thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    And we have been joined, as I said, with the presence of 
the full committee chairman, Mr. Royce of California, and he is 
recognized for as much time as he would like.
    Chairman Royce. Thank you, Madam Chair.
    And I do thank you for holding this important hearing. And 
let me just make an observation at the outset here, and that is 
Qatar's relationship with Hamas remains very concerning. Senior 
leaders of Hamas and the military wing of the Muslim 
Brotherhood, which is an Islamist group, designated as 
terrorists by Egypt, Saudi Arabia, Bahrain, and the United Arab 
Emirates, all reside in Qatar today. And earlier this month, 
and I think this is what is most concerning for all of us here, 
more Hamas tunnels were found underneath two U.N. Relief Works 
Agency's schools in Gaza. So Hamas is still using civilians and 
children to hide its activities and that, to me, does not sound 
like a legitimate resistance movement.
    And it is deeply concerning that, in the face of mounting 
international pressure, Qatar has doubled down on its 
relationship with Hamas. Just a day ago, Qatar's Foreign 
Minister called Hamas a legitimate resistance movement. And 
that is one of the reasons why I have joined with Ranking 
Member Engel and Representative Brian Mast and Representative 
Josh Gottheimer and several other members of this committee in 
introducing the Palestinian International Terrorism Support 
Prevention Act. This bill will impose sanctions on foreign 
persons and agencies and, yes, on governments that assist Hamas 
or assist Palestinian Islamic Jihad or the affiliates of these 
two groups. And, specifically, this legislation will sanction 
anyone that provides Hamas with diplomatic or financial support 
or who shelters their operatives. This practice needs to end 
now. There is no such thing as a good terrorist group.
    And I thank the chairman emeritus for yielding to me and I 
yield back.
    Ms. Ros-Lehtinen. Thank you so much for those welcome 
remarks.
    And I hope that we can move that legislation along. Thank 
you, Mr. Royce.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you very much and thank you to my 
colleagues from Florida, the chair and ranking member.
    I thank you all for being here. I look forward to your 
testimony.
    I just want to state a concern that I have that maybe you 
will be able to address, I wish there was someone from the 
State Department here because I would ask them directly, and 
that is the coordination or maybe the lack of coordination 
between the President of the United States, Donald J. Trump, 
and the State Department in regards to the relationship between 
Saudi Arabia and their alliance and Qatar. We know that Saudi 
Arabia just announced with the coalition the cutting of ties to 
Qatar, and then it seemed like the President, our President, 
said that was a great thing. Then you have the Secretary of 
State basically trying to calm the waters, and so I am a little 
confused, I don't really know what the United States' position 
is.
    So I would be interested to know if any of you know what 
the United States' position is. I think today, just today, our 
Ambassador to Qatar resigned because I don't know if she knows 
what the position of the United States is supposed to be. So I 
would be interested in knowing if you know what it is. And I 
would also like to know what you think it should be.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Frankel.
    And I would like it note that we have been trying to get 
the State Department for years to come in front of our 
subcommittee to talk about Saudi Arabia, but that has not been 
successful.
    We have been calling the wrong folks, Mr. Connolly? Okay. 
Thank you.
    I am so pleased to introduce our witnesses. We have a star-
studded panel today. First, we are delighted to welcome 
Ambassador Joseph Westphal, who served as U.S. Ambassador to 
the Kingdom of Saudi Arabia from March 2014 to January 2017. 
Dr. Westphal currently works as a senior global fellow at the 
Joseph H. Lauder Institute of Management and International 
Studies and as a senior fellow at the Center for Leadership and 
Change Management, both at the Wharton School at the University 
of Pennsylvania. Prior to his appointment, Ambassador Westphal 
was the Under Secretary of the Army, and its Chief Management 
Officer from 2009 to 2014 [speaking foreign language], he is a 
wonderful friend and it is great to have him here.
    Next, we would like to welcome back another great friend, 
Ambassador Feierstein, who was the Principal Deputy Assistant 
Secretary of State for Near East Affairs and served as U.S. 
Ambassador for Yemen from 2010 to 2013. Over the course of his 
career, the Ambassador has served in Saudi Arabia, Lebanon, 
Jerusalem, Pakistan, Oman, Tunisia. Yikes, all over the place. 
Mr. Feierstein helped develop and implement State Department 
policies and programs to counter violent extremism.
    Welcome back, friend.
    In addition, we would like to welcome for the first time 
Ms. Karen Elliot House.
    Thank you, ma'am.
    She is currently a senior fellow at the Belfer Center for 
Science and International Affairs at Harvard's Kennedy School 
of Management. She authored ``On Saudi Arabia: Its People, 
Past, Religion, Fault Lines--and Future.'' So I think she is a 
good expert on this. She is also a chairman of the board of the 
RAND Corporation and serves on multiple nonprofit boards, 
including The Trilateral Commission.
    We look forward to your testimony, Ms. House, thank you so 
much.
    And we would like to welcome Mr. Tom Malinowski--thank 
you--who served as an Assistant Secretary of State for 
Democracy, Human Rights, and Labor until this year. Prior to 
this position, he worked as Washington director for Human 
Rights Watch, a wonderful organization. Mr. Malinowski served 
as Senior Director for Foreign Policy Speechwriting at the 
National Security Council.
    And we welcome you. We look forward to your testimony.
    So, Mr. Ambassador, we will begin with you, Mr. Westphal.

 STATEMENT OF THE HONORABLE JOSEPH W. WESTPHAL, SENIOR GLOBAL 
   FELLOW, THE JOSEPH H. LAUDER INSTITUTE OF MANAGEMENT AND 
   INTERNATIONAL STUDIES, UNIVERSITY OF PENNSYLVANIA (FORMER 
    UNITED STATES AMBASSADOR TO THE KINGDOM OF SAUDI ARABIA)

    Ambassador Westphal. Good morning, Madam Chair, Ranking 
Member Deutch, distinguished members of the committee. I am 
delighted to be here. I am delighted to be with you, Madam 
Chair, and thank you for your introduction.
    I am just going to summarize a few points rather than read 
a statement. If you think about it, since the Iranian 
revolution, and that is nearly four decades ago, we have been 
spending a significant amount of our resources, our focus, and 
attention in the Middle East region. And there is no end in 
sight for that. Not only is it financial resources, but it is 
human resources--its stability, its security, a lot of issues.
    All of you touched on a number of issues that are 
critically important for us to be engaged in a more aggressive 
fashion. Especially if we are going to be able to devote more 
attention to other critical issues around the world than just 
what is happening in the Middle East.
    Funding for terrorist organizations has been something that 
we have been working on and I would urge this committee, Madam 
Chair and Ranking Member Deutch, to consider perhaps bringing 
in the Treasury Department, because we have been working with 
them very extensively--Ambassador Feierstein can speak to this 
as well--on trying to get these Gulf countries and Middle East 
countries to pass laws and enforce these laws that prevent the 
movement of money to terrorist organizations. Saudi Arabia, for 
example--and I think Treasury will verify this--has the 
strongest laws of any country in the Gulf region. Mostly 
because of our efforts and our drive to push that over the last 
10 years. We have met with a lot of success recently.
    Qatar has not been a success. Kuwait has been an issue as 
well, and there are other countries where this needs to be 
applied more aggressively.
    As some of you pointed out, our relationships can't be just 
about fighting terrorism. They also have to be about a number 
of other things that affect our security and stability in the 
region.
    The fact of the matter is that this discord between the 
Saudis, Emirates, and Qatar is long-standing. These are tribal 
countries. They have had issues in the past. They just emerged 
again. And it is in our interest. I believe that what Secretary 
Tillerson said in his brief remarks is the right way to go. I 
think we have to be more engaged in trying to resolve these 
issues by getting these countries to have a dialogue, but also, 
as you said, Madam Chair, to agree to end the funding of 
terrorist organizations.
    The Saudis, for example, imposed a situation where they 
have done due diligence on charities. They have a list of 
charities that one can donate to, that are approved by the 
government. And only those charities can you provide money and 
resources to as a Saudi. And if you provide to any other 
charity, you are subject to punishment by law. So they are 
trying very aggressively to do this. Is it foolproof? I cannot 
tell you that, I don't know. But I think they are making some 
efforts to stop the flow of money, at least through formal 
banking channels. And, again, I would urge you to consider 
talking to Treasury about that.
    The war in Yemen, another issue you brought up, continues 
to be a real problem for a lot of reasons, not just the human 
resources issue and humanitarian issues. We come very, very 
close to some settlement of the Yemen conflict. And, again, 
Ambassador Feierstein is far more knowledgeable than anybody 
here on this issue, having served there. But there were times 
when we came very close in the recent past to perhaps coming 
with an agreement, working with the Government of Oman and 
especially with the U.N. Special Envoy, who has done a 
phenomenal job of trying to bring everybody together, and as we 
got close, then things would break open. So I think we need to 
continue that effort working with all of the countries. The 
relationship between Oman and Saudi is not a great relationship 
and that needs--we need to empower these countries to work 
together to resolve these issues. As some of you stated, they 
need to work at it. So I think that that is an area where we 
need to do.
    On the PGM issue, which is going to come up today in the 
Senate and undoubtedly come to the House for your vote on it, 
and it will be an important issue. We labored with this issue 
of how to provide munitions, offensive munitions, to a country 
when at the same time we are trying to get them to reduce their 
military operations and come up with some kind of an agreement 
with the Houthis and perhaps Ali Abdullah Saleh's forces there 
and some resolution without dividing the country.
    So I think, again, our efforts there ought to be to push 
hard: If you are going to receive the assistance from us, these 
PGMs from us, then we insist that we are going to need to work 
harder to train your forces on how to use them. So we are not 
going to just deliver munitions and that is the end of it. We 
need to be more engaged in helping them. And, again, the State 
Department was doing--DRL was doing a lot in trying to train 
them on how to look at civilian casualties and assess their 
operations. So there is a lot more we can do than just sell 
them a weapons system without any constraints. We can put a lot 
of constraints.
    I will stop here and say there is a lot more to discuss. We 
need to talk about the transformation plan. It is important for 
both human resources issues as well as military and security 
issues. There are a lot of things that we ought to be doing 
more aggressively to partner up with Saudi Arabia, and I look 
forward to your questions.
    [The prepared statement of Ambassador Westphal follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much.
    And, Ambassador Feierstein, we will go with you. Thank you, 
sir.

 STATEMENT OF THE HONORABLE GERALD M. FEIERSTEIN, DIRECTOR FOR 
 GULF AFFAIRS, MIDDLE EAST INSTITUTE (FORMER PRINCIPAL DEPUTY 
 ASSISTANT SECRETARY FOR BUREAU OF NEAR EASTERN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE)

    Ambassador Feierstein. Thank you chairman Ros-Lehtinen, 
Ranking Member Deutch, members of the committee. Thank you for 
this opportunity to testify about an issue of considerable 
importance related to U.S. foreign policy and national security 
interests, not only in the Middle East but globally.
    Since the end of the Second World War, the U.S.-Saudi 
relationship has been a principal pillar of regional security 
and stability. It has joined the U.S. in resisting 
expansionism, advocated moderate solutions to the Israeli-
Palestinian dispute, and cooperated in the fight against 
violent extremism and terrorism.
    Likewise, Saudi Arabia's role in ensuring price and 
production stability in the oil market has contributed to 
overall economic growth and stability around the world for 
decades.
    In recent years, our relationship has frayed over 
differences from the Arab Spring to human rights, Iran to 
Syria. Even Yemen, despite a fundamental agreement on the 
nature of the conflict and the legitimacy of Saudi 
intervention, became a source of bilateral friction.
    Seeing the arrival of the Trump administration as an 
opportunity to repair the damaged relationship, the Saudis made 
clear their support for the three core regional policy 
objectives identified by the administration. The fight against 
violent extremism, a united front challenging Iran, and helping 
on achieving progress in resolving the Israeli-Palestinian 
conflict.
    In Riyadh, the two sides announced billions of dollars in 
new economic cooperation, including bilateral investments 
designed to advance each side's domestic political goals.
    For its part, the Trump administration made clear that it 
would roll back some of the restrictions placed on defense 
cooperation by the Obama administration and restore arms sales 
as well as intelligence and logistics cooperation with the 
Saudi military.
    It is premature to assess the significance of the new era 
of cooperation, however. Despite the positive indications, 
subsequent developments, including the current intra-GCC 
tensions with Qatar, have reinforced the view that much of 
progress advertised in Riyadh remains nascent and tenuous.
    Among the most well-received elements in Trump's speech to 
the assembled Arab and Islamic leaders on May 21st was his 
promise that his administration would refrain from lectures on 
human rights and civil liberties. Many of the leaders had 
viewed the Obama administrations emphasis on these issues as 
overweening and overly sanctimonious. But the proper way to 
restore the balance in our approach is not to adopt a values-
free foreign policy. The U.S. is locked in a battle of ideas 
with those who believe that there is a model of development 
that permits rapid economic progress while retaining 
authoritarian political systems. The U.S. needs to push back on 
that notion and make clear that the values we advocate are 
central to our conception of the appropriate relationship 
between the government and its citizens because they reflect a 
system of political behavior, time tested, that produces 
stable, durable, and just societies.
    Saudi Arabia represents a particularly difficult challenge 
for the U.S. on human rights issues. Its society is built 
around fundamentally different conceptions of social 
relationships and civil rights. We have made little progress 
over the years in convincing them that our approach will help 
them build a stronger society, and there is little evidence to 
suggest that the majority of Saudis agree with us, rather than 
their government, on these issues.
    Vision 2030, however, presages not only a dramatic 
replacement of the public sector by the private sector as the 
main engine of economic development, it also signals a 
fundamental shift in the traditional relationship between the 
government and its citizens. That can become a driver for a 
revamped approach to civil liberties and human rights. Thus, 
economic reality, rather than political or social reform, may 
become the main instrument for a new, more open Saudi society.
    In conclusion, as the U.S. seeks to restore stability and 
security in the Middle East, defeat violent extremism, and roll 
back Iranian expansionism, Saudi Arabia will remain a vital 
partner. But Saudi Arabia itself is at a crossroads and the 
country will necessarily devote its energy primarily to 
addressing internal challenges in the coming years. Through 
quiet diplomacy, the U.S. can contribute to the kind of 
economic and social initiatives that will enable political 
reforms, leaving Saudi Arabia a more open, democratic society.
    Thank you for your attention, and I look forward to 
responding to your questions.
    [The prepared statement of Ambassador Feierstein follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ambassador.
    Ms. House.

  STATEMENT OF MS. KAREN ELLIOTT HOUSE, SENIOR FELLOW, BELFER 
 CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY 
            SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Ms. House. Thank you. Like Ambassador Westphal, I am going 
to simply make some points.
    As has been said by some of you and the witnesses, there 
are enormous uncertainties in the Middle East now about the 
stability of borders, about the outmoded economic systems and 
can they provide jobs, as the chairwoman said, for this bulge 
of young people.
    Those power vacuums are being exploited by both Iran and 
Saudi Arabia, who are in competition for influence in the 
region. And the fact that the U.S. had little strategy or 
engagement in the region over the past at least half dozen 
years other than promoting the security of a nuclear deal with 
Iran has left the whole region like an unruly schoolyard: With 
no teacher on duty, the biggest bully is the winner.
    And I think it is important that we all understand right 
now Iran is the winning this competition. And it is not in the 
interest of the U.S. for Saudi Arabia to be destabilized or 
feel unsupported. So President Trump's visit to the region has 
clearly signaled that the U.S. is back in the game and back on 
the side of Saudi Arabia.
    The Saudis and everyone else, as the Ambassador said, it is 
too early to say that this is a lasting change with lasting 
impact, because it will take more than a high-profile visit to 
actually rebuild the trust that was so badly destroyed over the 
last half dozen years and the consequences of that.
    The decision by the President to back the Saudis and their 
colleagues against Qatar does signal that he is willing to 
engage--that he means what he says about reducing extremism in 
the region. And as has already been said, the support of the 
Muslim Brotherhood, Hezbollah, Hamas, all by Iran and Qatar, 
has to be a source of concern and something that the U.S. seeks 
to counter.
    A year ago, the Saudis were fundamentally in a crouched 
position, feeling unsupported. At least now they are upright 
with the sense that the U.S. is behind them and beginning to at 
least shadowbox with Iran and Qatar and their adversaries.
    I want to spend my last minute and a half focused on the 
domestic Vision 2030, because I have just come back from 3 
weeks there, and I think it is also important that we 
understand things are changing in Saudi Arabia, not as fast as 
we might wish, but the opportunities offered to women, the fact 
that the government has banned the religious police from 
arresting people for being unveiled or gender mixing has 
produced a quite--in my view--remarkable relaxation, even in 
Riyadh, one of the most conservative places. Black abayas are 
obviously meant to mask a woman's figure. You now see young 
women not only abandoning black, but fitting them at the waist, 
making the figure very revealed, or walking around with them 
completely open, showing their tight T-shirts and Levis. I 
don't mean to make too much out of just a dress code change, 
but it is significant in a country where, unlike here, where 
individualism is prized; there, being part of the group and not 
stepping outside is what is prized. And the fact that people 
are courageous enough to begin to do these things I think we 
shouldn't diminish.
    So I believe that Vision 2030 and supporting economic 
reform, which I believe they now must do, because oil prices 
aren't likely to recover, is one way the U.S. can begin to 
expand human rights in the Kingdom.
    And I agree with what has already been said, that we should 
make clear that it is important for people to have the right to 
free speech, but Saudis are taking it more and more on Twitter 
and the internet so that there is something of a virtual 
opposition. And yes, the government still arrests people who 
get too critical. And we should make clear that we don't agree 
with that. But this is an opportunity for the U.S. to both help 
stabilize and change Saudi Arabia by supporting Vision 2030 and 
helping them deal with change internally and when they have all 
these external problems. Thank you.
    [The prepared statement of Ms. House follows:]
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much Ms. House. Mr. 
Malinowski.
    Mr. Malinowski. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Can you pull that microphone a little 
closer?
    Mr. Malinowski. Is that good?
    Ms. Ros-Lehtinen. Maybe hold the gizmo.

  STATEMENT OF THE HONORABLE TOM MALINOWSKI (FORMER ASSISTANT 
     SECRETARY FOR DEMOCRACY, HUMAN RIGHTS AND LABOR, U.S. 
                      DEPARTMENT OF STATE)

    Mr. Malinowski. Thank you for having me today.
    I fully agree that it is important for us to try to have a 
good relationship with Saudi Arabia. We have a lot of interests 
in common. We have done a lot to try to deepen our partnership 
with the Saudis over the last several years. And it is 
perfectly reasonable for a new administration to try to improve 
the relationship further.
    At the same time, I think we have to be honest that Saudi 
Arabia's agenda in the Middle East is not identical to our own. 
Where there is overlap, we should try to cooperate, and where 
there is not, we should be guided by our interests and values.
    How we engage with Saudi Arabia is also symbolically 
important around the world. My responsibilities at the State 
Department were global, and I think I may want to begin with 
this point because it is something that I saw in my engagement 
with countries all over the world. I think all of us agree, 
judging from the various statements, that defending human 
rights and democratic freedoms in the world is part of who we 
are as a country and very much in our interest. Doing this in 
Saudi Arabia is obviously very, very challenging, but as 
someone who led our Government's efforts to promote our values 
around the world, let me stress this is as strongly as I can: 
We cannot have a credible global human rights policy unless we 
also apply it somehow to Saudi Arabia.
    In almost every authoritarian country I dealt with as 
Assistant Secretary, people would ask me, ``Do you criticize 
your Saudi allies the way you criticize us?'' assuming the 
answer would be no. Fortunately the answer was yes. Although we 
may not do it as loudly in Saudi Arabia as we do in some 
places, we have pressed the Saudis on dissidents, on women's 
and migrants' rights, on religious freedom, on the war in 
Yemen. I would not have had a leg to stand on with Russia or 
China or Iran or Cuba if I couldn't have said that.
    And that is why President Trump's very clear public message 
in Riyadh that we will no longer press the Gulf States on these 
issues was so harmful. We can't have a credible global human 
rights policy if we say to the whole world that we are giving 
the Saudis a pass.
    And I think Secretary Tillerson's subsequent very 
appropriate criticism of the Iranian elections was deeply 
undermined by his refusal to say anything at the same time 
about Saudi Arabia. That is a gift to everybody who wants to 
portray American advocacy for human rights as just a weapon 
that we use to beat up our enemies rather than a principled 
policy that we try to apply to everybody.
    And I think the problem was compounded by the clear 
contrast between how the administration is engaged with Saudi 
Arabia and its treatment of our allies in Europe and elsewhere. 
It is one thing to go to Saudi Arabia with the legitimate aim 
of improving our relationship. I think it was, frankly, 
dispiriting and even disgraceful for the President to say in 
Riyadh that we will not lecture countries in that part of the 
world and then to deliver what was clearly a lecture in 
Brussels to democratic allies that have fought and bled with us 
all over the world and that share our values about what they 
allegedly owe to the United States. I think some corrective 
from the Congress is needed here.
    In the meantime, our approach to Saudi Arabia should be 
based on realistic assessment of where our aims do and do not 
coincide. With the current crisis over Qatar, for example, 
there is absolutely a legitimate concern, as you mentioned 
Madam Chair, about that country's funding to terrorist groups. 
But I think it would be a mistake to assume that this is the 
principal reason why Saudi Arabia acted against Qatar given 
Saudi Arabia's own extremely complicated, to say the least, 
relationship with violent extremism. Our interest lies in 
seeing this dispute resolved peacefully and with concerns about 
terrorist financing addressed by all sides rather than trying 
to take sides.
    With respect to Iran, the United States and Saudi Arabia 
share a paramount interest in opposing that country's malign 
influence in the region, but this is about countering the 
policies of the current regime in Iran. It is not in our 
interest to be seen more broadly as supporting Saudi Arabia and 
opposing Iran per se in some kind of zero-sum struggle for 
dominance in the Middle East. Absolutely, it is not in our 
interest to be viewed as aligned with Sunnis in an existential 
struggle with Shia Muslims or to encourage the formation of an 
alliance which is defined in sectarian religious terms. We have 
many Shia friends in the region: In Iraq, we are fighting ISIS; 
in Bahrain; in Lebanon. Why would we signal to them that we are 
somehow engaged on one side of a religious war?
    Finally, with respect to Yemen, the United States and Saudi 
Arabia clearly have a common interest there in combatting 
Iranian influence, in denying safe haven to al-Qaeda, 
protecting sea lanes. We do not have an interest in giving the 
Saudis a blank check to make bad decisions for which the United 
States will then share responsibility. We provided very 
generous support to the Saudi-led coalition. We tried to help 
them improve their performance, including the effort that 
Ambassador Westphal mentioned that my bureau led on civilian 
casualties. But the intervention there clearly hasn't achieved 
its aims. The Saudis have continued to strike targets that 
exacerbate the humanitarian situation, suggesting they have 
sometimes made a conscious effort not to follow our advice.
    There is, as you know, a looming famine in Yemen. This is 
not an abstraction. Over 3 million people are now suffering 
acute malnutrition. There are 100,000 case of cholera. Saudi 
strikes on roads, bridges, and ports have kept aid form those 
in need. We are involved in this.
    Now, if we think unconditionally supporting our ally is 
worth that human cost, then we should honestly say so and 
accept our share of responsibility for that cost. I personally 
believe it is not and that we should therefore temper--not 
withdraw, but temper our support to the Saudis to encourage an 
outcome more in keeping with our interests. I think that is 
what the vote in the Senate is about today.
    On all these issues, offering partnership where our 
interests align and honesty where they do not, in my view, is 
the best way to build long-term trust and a better relationship 
with Saudi Arabia.
    Thank you very much.
    [The prepared statement of Mr. Malinowski follows:]
    
    
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
                               ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    Thank you to all of our panelists. And for the panel, I 
will start the questions.
    The JCPOA and the previous administration's willingness to 
elevate the Iranian regime's profile came at the expense of our 
traditional alliances with the Saudis and the rest of the GCC, 
and that eroded our credibility. Iran is probably the greatest 
threat to Saudi Arabia and is certainly one of the greatest 
threats to regional stability and U.S. national security 
interests. Iran's proxy war in Syria, Iraq, and Yemen, and the 
presence of Hezbollah in Lebanon have the entire region on 
edge.
    The new administration is intent on reversing the policy of 
seeing Iran and Saudi Arabia share the neighborhood with 
supposedly similar beliefs, and we know that that cannot 
happen.
    What can Congress do with our Saudi partners to address our 
mutual concerns with the Houthis, Iran's support for Assad and 
Hezbollah, and its desire to spread its ideology throughout the 
region?
    Ambassador Westphal. Well, Madam Chair, in my 3 years 
there, I spent quite a bit of time talking to the Saudi 
leadership, from the King, the Crown Prince, the Deputy Crown 
Prince, about the role of Congress. And I think you have 
touched on something that I think has been--I am not going to 
say absent--but something that needs to be really pushed 
harder, which is your role as the most important branch of 
government in these matters. So, for example, delegations that 
travel there, I have been telling the Saudis that it is 
important for them to hear what you are saying because you 
represent the interests of the American people. And you speak 
for the American people in ways that even Presidents can't do 
because you all represent different constituents.
    As such, I think try to get them to strengthen their 
relationships to have a better relationship with their GCC 
partners to include countries like Oman, for example, which 
they see as a link to Iran, to try to understand how they can 
carry on a GCC dialogue on these issues, much like you do in 
Congress when you have big differences between parties or 
ideologies here; you carry on the dialogue. I think that that 
is important to do. And I think Congress can play a role, not 
in directing foreign policy, but in shaping it in the future, 
given all your interests that you represent.
    Ms. Ros-Lehtinen. Thank you.
    Anyone else?
    Thank you, Ambassador.
    Ambassador Feierstein. Thank you, very much, Madam 
Chairman.
    What I would say is that, in the region, you have two 
elements that are the drivers of instability and the weakening 
of societies and governments. You have violent extremism on one 
side, and then you have Iran on the other side. And both of 
them are fundamentally responsible for destabilizing the 
region.
    In my own view, the Iranians and the violent extremist 
organizations pursue the same tactics and achieve success in 
the same way, and that is that they take advantage of the 
weakness of governments and societies in order to exert their 
influence through money, through military assistance and 
training. Certainly, my experience in Yemen was precisely that, 
that Iran was able to establish a foothold, to establish a 
relationship with the Houthis, primarily because the Government 
of Yemen was weak and was unable to provide for the needs and 
the demands of their own citizens.
    And so, in my view, the way to push back on Iranian 
expansionism is the same way that we push back on violent 
extremism, and that is that we need to help these societies 
build up their institutional capacity in order to take on their 
responsibilities and to provide governance, to provide law and 
order, and to address the needs of their entire population. So 
I would hope that the Congress, as it is looking at the budget, 
as it is looking at the requirements moving forward, would 
continue the long-standing U.S. position of helping these 
societies build their states, build their governments, build 
their institutions, and that is was ultimately what is going to 
allow us to achieve success in these fights.
    Ms. Ros-Lehtinen. Thank you.
    I know you would have remarks, but my time is up.
    I am pleased to yield to Mr. Deutch for his time. Thank 
you.
    Mr. Deutch. Thank you. More than one of you mentioned the 
issue of Saudi financing of terrorism. There was a New York 
Times piece last year that referred to the Saudis as both the 
arsonists and the firefighters when it comes to the spread of 
extremism.
    Secretary Malinowski, you describe the Saudi funding of 
Wahhabism around the world as having done incalculable damage, 
even if Saudis leaders have recognized the problem. When Saudi 
and others are demanding that Qatar change its behavior on 
terror financing, how do we reconcile these two positions? Is 
it appropriate to equate what the Saudis do with what the 
Qataris do? Is one worse than the other? How do we sort that 
out?
    Mr. Malinowski. I think--I never think it is helpful to 
kind of do a ranking; you know, who is worse than who? Is Iran 
worse than Saudi Arabia on human rights or vice versa? Are the 
Qataris or the Saudis worst in terms of the arsonist part of 
that equation?
    But I think it is important here to stress that there are a 
lot of complicated things going on in this dispute between 
Saudi Arabia and Qatar. And a principled objection to Qatari 
financing of groups like the ones that you mention I don't 
think is really at the very top of the list. And I think if we 
were to lead with what I think is our core interest here, which 
is to reduce and eliminate funding for violent extremist groups 
and the broader phenomenon of tens of billions of dollars 
emanating primarily from Saudi Arabia to change the character 
of how Islam is practiced in many parts of the world--if we 
were to lead with that, we would have a lot to say to every 
country in the region, including Saudi Arabia. And I hope that 
this Qatar crisis, rather than inducing us to simplistically 
take sides with the Saudis and the UAE, forces a deeper 
examination of those problems.
    Mr. Deutch. Well, Ambassador Westphal, I imagine, during 
your tenure, this issue arose frequently. And so what is the 
correlation between the acknowledgment that you received from 
the leadership that this is a problem and steps that were 
actually taken to address that?
    Ambassador Westphal. Well, first of all, President Obama 
made four visits to Saudi Arabia, and in three of those that I 
sat in, he brought up the issue very directly. Now, he brought 
it up in terms of the large disparity between the crime and the 
punishment issue.
    And then, on the funding, Secretary Kerry and others, and 
myself----
    Mr. Deutch. Mr. Westphal, I am sorry. I don't question that 
it was brought up by visits from Secretary Kerry and the 
President. But what was the response from the Saudis, and to 
what extent did they acknowledge and to what extent did they 
address it?
    Ambassador Westphal. They acknowledged the issue, and they 
addressed it by actually passing a lot of laws. And, again, 
like I said earlier, working with us in multiple meetings 
through Treasury and our other agencies to try to stop the flow 
of resources. So they have made some significant progress in my 
view.
    Mr. Deutch. Okay. And just moving on in the remaining time 
I have. I would like to be supportive of the U.S.-Saudi 
alliance. It is critical. But I also believe that it is 
important for us to ensure that the steps we take to strengthen 
our allies don't ultimately run counter to our own interests, 
as I said earlier. And as Congress contemplates this arms sale, 
starting with PGMs, help us understand the implications of 
selling these weapons without having adequate assessment of how 
the Saudi Air Force can and will use them versus the 
implications of not selling them and the impression that that 
would give to Iran. Ms. House or Ambassador Feierstein?
    Ms. House. On the weapons sales, I would just like to 
repeat what somebody already said. It is not the selling them 
weapons that actually does any good in my view. We need to be 
working with them to make them a much more efficient and 
effective military, not largely an employment operation, their 
defense department. I think they understand that and would be 
willing to cooperate.
    Mr. Deutch. Ambassador Feierstein on the PGMs?
    Ambassador Feierstein. I believe that we should move 
forward on the PGM sale. I think that it is important to help 
the Saudis improve their capability. One of the things that 
happened over the course of the conflict in Yemen is that we 
actually withdrew some of the advice and assistance that we 
were providing to the Saudis in their air operations center. I 
think we should restore that. It was an important element of 
how we could help them improve. But the PGMs themselves, if 
used appropriately, will actually result in reduced civilian 
casualties and reduced collateral damage. And for that reason, 
I think we should go forward with it.
    Mr. Malinowski. Could I just pick up on that? We, I think, 
do have a small disagreement on this point. PGMs, in principle, 
can be very helpful in reducing civilian casualties. But that 
has not been the case in Yemen because the problem there has 
not been an absence of precision. The problem there has been 
that the Saudis have been hitting the wrong targets. If you are 
hitting a bridge or a medical facility or a port facility that 
you shouldn't be hitting, having a very precise weapon is not 
going to help, and that was the reason why we ultimately made 
the decision to withhold those sales.
    I am absolutely in favor of selling defensive weapons 
systems and a whole host of other things that the Saudis can 
use to protect their border. But these in particular make us 
complicit in the strikes that are creating the humanitarian 
crisis. And I think, if that is a priority for us to reduce, 
then I think we do need to temper it.
    Mr. Deutch. Thank you very much.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Donovan of New York.
    Mr. Donovan. Thank you, Madam Chair.
    Ambassador Westphal, you had testified before about the 
Saudis' attempt to curtail terrorist funding by designating 
specific charities and restricting others. Just last year, our 
Nation gave Iran $1.7 billion. That was designated as $400 
million for sales that we had never paid them for in previous 
decades. And the additional $1.3 billion was the interest on 
the $400 million that they gained in our financial services 
community for us retaining that money. There are no 
restrictions, obviously, on the use of that money. And I think 
we all suspect how they used that $1.3 billion in interest from 
American banks.
    As we look toward our allies, our friends in the Middle 
East, the people that we are negotiating with, when we look at 
ourselves, do you think that there are some restrictions that 
the United States could put into place that could curtail what 
may end up being our supporting or giving money to some 
organizations who may use that money then to harm ourselves?
    Ambassador Westphal. Yes. I think that as I was leaving the 
country----
    Ms. Ros-Lehtinen. Put the microphone on.
    Ambassador Westphal. I am sorry.
    As I was leaving the country and had a conversation with 
King Salman and the other leadership, we talked about the fact 
that sanctions against Iran need to be continued and 
strengthened. Particularly, I think, their biggest problem with 
the agreement with Iran was that in addition to the nuclear 
program, we did not negotiate their activities in the region, 
in Iraq, in Syria, and in Yemen. They did not understand why 
President Obama and the administration did not push harder on 
those issues as part of the agreement. And so we talked about 
the fact that maybe, in this new administration, there could be 
a more aggressive effort to do that.
    Mr. Donovan. And to the rest of the panel--apparently my 
time is up already, it started at 1 minute.
    Ms. Ros-Lehtinen. It's alright. We just messed up the time. 
Go ahead.
    Mr. Donovan . Thank you, ma'am.
    Ms. Ros-Lehtinen. Not for Mark Meadows. Not for New 
Yorkers. You talk fast.
    Mr. Donovan. Thank you very much.
    For the remaining members of our panel, each of you spoke 
about the difference in our values that we treasure and hold in 
human rights, freedoms of religion, freedoms from persecution, 
civil rights, women's rights. How do we deal with countries 
that don't embrace our same values? And at the same time, I 
guess--because we think they are self-governing countries and 
maybe we should respect their decisions their countries make, 
it is hard for us to respect what other nations do to women and 
people who are persecuted because of their religious beliefs. 
So I am just curious if you guys have an idea of how we balance 
those two competing interests?
    Ambassador Westphal. I have two things that I think are 
absolutely critically important. The first is primary/secondary 
education. The Saudis understand that their system is in dire 
need of help, particularly on teacher development and education 
and the curriculum. So, recently, the Minister of Education 
declared that religion would be only taught for a very short 
period of time during school hours. But the curriculum revision 
needs help. And I offered them that we could help in many 
different ways. They put out a proposal for teacher development 
to bring teachers to the United States to mentor their teachers 
here and got no takers on the proposal. They are going to put 
another one out.
    So education, primary education, is where all this 
Wahhabism and all this intense religious teaching took its 
roots. And if you change that system and you improve education 
at the lowest levels--not higher education but lower, primary/
secondary.
    And the second is their judicial system. They also said to 
me: We have got old judges. We have got an old system under 
sharia law that needs modification, needs reform. We need to 
help train judges, train prosecutors, train defense attorneys. 
To do that, you will get a better human rights record. You will 
get a better record for business. If you are a businessman and 
you want to do business in Saudi Arabia, you want to make sure 
your interests are protected and your lawyers can fight for 
you. Right now, that is not always the case. So we need to help 
them in those two areas in my view.
    Ms. House. And I just reinforce the education point. It is 
one of the opportunities for America. I am shocked to hear that 
nobody responded. The Canadians are helping retrain teachers. 
When I was doing my book, the Saudis were promising to change 
the textbooks. But as the man in charge of that told me, when 
you shut the door and the teacher is in charge, at some level, 
it doesn't matter what the textbook says. So there is a big 
need for both what the Ambassador said, starting at a young age 
to teach something other than hatred of Jews, Christians, 
Shias.
    Ms. Ros-Lehtinen. Thank you, Ms. House.
    These New Yorkers. You know, give them a finger, they take 
your whole hand. You are out of time.
    Mr. Connolly of Virginia.
    Mr. Connolly. I thank the chair and welcome the panel.
    And I am going to ask some rapid-fire questions and ask you 
to be as concise as you can because I want to fit a lot in.
    Mr. Ambassador, in listening to Ms. House, I hear this 
dystopian wreckage of a relationship over the last 6 years, and 
thank God Donald Trump arrives in Riyadh to try to restore some 
semblance of order in the relationship.
    You sat, personally, in meetings with the President of the 
United States and the Saudi King. Is that correct?
    Ambassador Westphal. Yes.
    Mr. Connolly. Three times? Four. Three.
    Ambassador Westphal. [Nonverbal response.]
    Mr. Connolly. Plus the secretary of state separately.
    Ambassador Westphal. [Nonverbal response.]
    Mr. Connolly. Yeah.
    Could it be that some of the trouble in the relationship 
was the Saudis were hearing things they did not want to hear? 
Because if I heard your direct testimony, the President 
personally brought up human rights issues and other issues that 
matter in terms of U.S. values. Is that correct?
    Ambassador Westphal. That is correct.
    Mr. Connolly. And they don't like hearing that? It was not 
well received?
    Ambassador Westphal. You know, the answer----
    Mr. Connolly. Go quick. Because I am going to run out of 
time. That is all. Go ahead.
    Ambassador Westphal. The answer is, yes, they didn't want 
to hear it. But, yes, they did take actions. And, yes, we did 
follow up.
    Mr. Connolly. So it was efficacious even if it wasn't 
always welcome.
    Secondly, I think--and I don't mean to put words in Ms. 
House's mouth. But I assume she was inferring that one of the 
big problems was JCPOA, that the Saudis, on principle, did not 
want to see the United States, let alone the Group of 5, engage 
with the Iranians on anything. Would the Saudis have preferred 
the kinetic option, as the military refers to it, rather than a 
negotiated agreement to try to roll back the nuclear 
development program?
    Ambassador Westphal. No. And they clearly said to me, very 
directly, all of the leaders said: We don't oppose the nuclear 
agreement. We oppose the fact that nothing else was tied to it.
    Mr. Connolly. Got it. But when we negotiated with the 
Soviets, we didn't apply that standard. When John Kennedy 
signed the first nuclear test ban agreement with Nikita 
Khrushchev, he didn't make it an all-comprehensive agreement, 
because that wouldn't have worked. We didn't try to 
circumscribe Soviet behavior all over the world. We didn't have 
a list of objectionable behaviors that, oh, by the way, needs 
to be included in a nuclear test ban agreement. We built 
relationships one agreement at a time, because that is the way 
it works. Fair enough?
    Ambassador Westphal. [Nonverbal response.]
    Mr. Connolly. Thank you. Was that a yes, for the record?
    Ambassador Westphal. That is a yes.
    Mr. Connolly. Thank you.
    Mr. Malinowski, Ambassador Feierstein said that the Saudis 
see our human rights advocacy--and other advocacies for press 
freedoms and so forth--as ``overweening and self-righteous'' 
sometimes. Gee, we don't want to be seen as overweening or 
self-righteous, do we? I mean, shouldn't we abandon all of 
those efforts so that we clear that up and we are no longer 
seen as self-righteous or overweening?
    Mr. Malinowski. It would be so much easier, wouldn't it?
    Mr. Connolly. Wouldn't it? That is the argument I hear from 
Duterte in the Philippines, from President Xi of China, from 
Kim Jong-un in North Korea: Stay out of our business. Who are 
you to judge? Why do you bring up these ancillary issues that 
only cloud the relationship?
    And I think it is a fair--in terms of the dialectic of 
American foreign policy, it is a fair question. Always has 
been, by the way, going back to the founding of the Republic. 
But the idea that we would abandon our advocacy of our own 
values, even if it makes other people uncomfortable, is, to me, 
a very troubling development in our own foreign policy. And I 
wonder, since you had that portfolio, whether you want to 
comment on that?
    Mr. Malinowski. Sure. And I would note I think Ambassador 
Feierstein and I agree on this 100 percent.
    Mr. Connolly. And I don't mean to say--you weren't 
advocating. You were describing. I hope I got that right.
    Mr. Malinowski. Look, in the business of promoting human 
rights and democratic values, you cannot be effective and 
agreeable at the same time. That is almost a truism. Because if 
we are being effective, then an authoritarian regime that 
doesn't want to change is going to be upset about that.
    We are actually fairly soft with the Saudis. They are a 
close ally. We don't yell and scream at them the way we yell 
and scream at some countries. And sometimes we are criticized 
for not saying enough, as you well know.
    But we have raised these issues. We did in the Bush 
administration. We did the in the Obama administration. We were 
sometimes effective.
    I think they care about their international reputation. A 
very interesting example of this is the case of the blogger 
Raif Badawi, who is still, unfortunately, in prison in Saudi 
Arabia, but who was sentenced to 1,000 lashes because he tried 
to set up a human rights group in the country.
    Mr. Connolly. Is that because of sharia law?
    Mr. Malinowski. It is because he set up----
    Mr. Connolly. Is there sharia law in Saudi Arabia?
    Mr. Malinowski. Yes. Yes.
    Mr. Connolly. Sharia law, that so many of my friends on the 
other side of the aisle campaigned in the United States 
against--we don't want to see that here--but it is in our solid 
ally Saudi Arabia's code. Is that correct?
    Mr. Malinowski. Well, yes. And, of course, there are many 
different interpretations of sharia law. And as Ambassador 
Westphal rightly pointed out, there is a huge problem in just 
the absence of clarity about law and what the judiciary is 
supposed to do.
    But in that case, he was sentenced to 1,000 lashes. 
Outrageously, they subjected him to 50. But I think in part 
because this is an outcry around the world, this is 
embarrassing for Saudi Arabia. That sentence has not fully been 
carried out, and I am still hopeful there may be a way--and I 
hope that the Trump administration will continue our efforts in 
this--to try to get that brave young man out of prison.
    Mr. Connolly. My time is up, and I thank you all for your 
testimony.
    Ms. Ros-Lehtinen. Thank you, very much, Mr. Connolly.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    Just to remind everyone that, when John Kennedy made that 
great agreement with the Russians, yes, it got a lot of people 
optimistic, but it was followed by--some of the worst parts of 
the Cold War happened immediately after that. The Soviets did 
not take that as a sign of peace. They took it as a sign of 
weakness and doubled their support for revolutionary units all 
over the world. And I would suggest that the mullah regime in 
Iran with their now $1.7 billion in cash from the Americans 
probably don't think of us as being anything but patsies and 
weak for doing such a thing.
    Let me ask about Saudi Arabia. Specifically, do any of our 
witnesses know if there are still officials in power in Saudi 
Arabia who were in authority at the time when 3,000 Americans 
were slaughtered on 9/11? Do we still have any Saudis still in 
positions of authority that were there when that happened?
    Ambassador Westphal. Yes. Well, the King was the Governor 
of Riyadh. So he was an authority.
    Mr. Rohrabacher. Uh-huh. He was part of the clique that ran 
the country then, right?
    Ambassador Westphal. Well, yeah. He is----
    Mr. Rohrabacher. Okay. So the King--and that is true all 
the way through, right? We have the same clique running Saudi 
Arabia that slaughtered 3,000 Americans. And that shouldn't 
be----
    Ms. House. Well, the most important young leader right now, 
Mohammed bin Salman, is only 30. So he was alive, but he was 
not ruling then.
    Mr. Rohrabacher. Let's hope that he doesn't learn from his 
elders.
    The fact is, is that most people who I have talked to 
believe that the clique that runs Saudi Arabia knew what Osama 
bin Laden was planning, and they did nothing to stop it. At the 
worst, they did nothing to stop it. Some of them actually 
probably participated in helping.
    So is today that clique in Saudi Arabia helping to finance 
the Taliban and finance Pakistan, of course, who is financing 
the Taliban in Afghanistan? Is any of that money from Saudi 
Arabia going to Pakistan and then, thus, on to the Taliban?
    Ambassador Westphal. They have made every effort to stop 
that funding completely. Taliban----
    Mr. Rohrabacher. So they don't give money--Saudi Arabia 
does not give money now to Pakistan?
    Ambassador Westphal. No.
    Mr. Rohrabacher. They cut Pakistan off?
    Ambassador Feierstein. No. No. No. Saudi Arabia, as does 
the United States, of course, provides money to the Government 
of Pakistan.
    Mr. Rohrabacher. That is correct. Over some of our 
objections, I might add.
    Ambassador Feierstein. But we do.
    Mr. Rohrabacher. So the Saudis are still financing 
Pakistan, who is the main sponsor of the Taliban and other 
terrorist groups in that region. And the Saudis are financing 
it. Some of the officials who were part of the clique before 9/
11 are still there. And how about, are the Saudis still using 
their wealth--to go with some of the questions that have been 
asked--to promote these madrasas? Or has there been any real 
reform of the message--of the horrible message--that has been 
given to young people throughout the Islamic world by these 
madrasas, which is filled with hate for the West and Israel but 
the West as well?
    Ambassador Westphal. I will mention one, Congressman, a 
very recent one. Any imam who leaves Saudi Arabia to go to a 
conference or to go preach in a mosque anywhere else in the 
world has to have the permission of the government. And to get 
that permission, they do due diligence on what he is going to 
say, who he is going to speak to, what his own views are. And 
if an imam goes without permission, as was the case at least in 
one example I know, they are arrested and----
    Mr. Rohrabacher. And they are arrested at--now we are then 
trusting the group that is running Saudi Arabia to make sure 
that those people who are leaving are ideologically correct and 
philosophically going to promote a better world. Does the rest 
of our panel believe that that is the case? I find it very 
difficult to believe that the establishment in Saudi Arabia is 
censoring these folks in their madrasas--unless you can tell 
me. I guess you mentioned that you think they are.
    What about you? Do you think they are?
    Mr. Malinowski. I think they have made some efforts. But, 
no, I would not say it is nearly what it needs to be.
    Mr. Rohrabacher. And I will have to say----
    Ms. House. Can I just add on that point----
    Mr. Rohrabacher. Sure. Go ahead.
    Ms. House [continuing]. The Saudis understand that their 
reputation here has taken a hit over the last at least 20 
years. And the fact that--somebody asked earlier, what can 
Congress do? The fact that Congress plays a bigger role and the 
Kingdom leadership is beginning to understand that dealing with 
America is not as simple as just having a meeting with the 
President. So they do understand that Congress has a bigger 
role, as Ambassador Westphal said, representing the American 
public. And it is having an impact on--not a cure, but a 
beginning impact--on things like what you are discussing.
    Mr. Rohrabacher. We are going to watch this very closely. I 
don't think that we can cross our fingers and try to pretend 
that bad things aren't happening and then they will just go 
away if we show we are friends. And I think there has been a 
lot of that irrational optimism that has gone into our 
relations with the Saudis over the years.
    Thank you very much.
    Ms. Ros-Lehtinen. Irrational exuberance as our former Fed 
Reserve head said.
    Ms. Frankel of Florida.
    Ms. Frankel. Thank you, Madam Chair.
    And thank you to the witnesses. This has been a very 
interesting conversation here.
    Mr. Malinowski, you, in your testimony or in some answer, 
you said something about what was the real motive of the Saudis 
to cut off the ties from Qatar. What do you think was the real 
motive?
    Mr. Malinowski. I think there were multiple and very 
complicated motives. And my first point was that the public 
talking point, that it is just legitimate anger over Qatari 
funding for extremist groups around the world, was probably not 
the first and most important reason.
    I think Saudi Arabia's most intense preoccupation over the 
last few years has been to combat what we can loosely refer to 
as the Arab Spring, the challenges in multiple countries in the 
region to established authoritarian regimes. Coming from 
everything, from liberal young kids who want to see democracy 
to the Muslim Brotherhood on the other side. And one of their 
beefs with Qatar is that they view Qatar as having encouraged 
some of that, funded some of that, promoted it through Al 
Jazeera, which has, you know, a lot of stuff on it that I don't 
like, but also is a freewheeling space for freedom of speech 
where people can criticize their governments and corruption and 
so forth. And this has led to a rivalry between the two States 
that has played out in the way that we have seen.
    There are a lot of other issues involved, as well, where I 
don't think it is in the interests of the United States to take 
sides with one country or the other. It is in our interests to 
try to resolve this peacefully as quickly as possible.
    Ms. Frankel. Well, if I understand what you just said, you 
think their primary motive actually sounds like the opposite of 
what they publicly said was their motive. I mean, does anyone 
else want to make a comment on----
    Ms. House. The Saudis believe that Qatar seeks to overthrow 
their regime, just like they believe the Iranians do, and that 
all of this terrorist financing is part of destabilizing their 
country. So it is very personal.
    Ms. Frankel. Excuse me. That is not what I heard. What I 
heard Mr. Malinowski say is that----
    Ms. House. He wasn't willing to be as politically incorrect 
as----
    Ms. Frankel. No, listen. But what I heard him say--that is 
why I wanted to just make sure--is that they were trying to 
promote an Arab Spring-type situation, which would be--I 
interpret that as something different than promoting terrorism.
    Mr. Malinowski. Let me put it this way.
    Ms. Frankel. All right.
    Mr. Malinowski. ISIL wants to overturn the existing 
political order in the Middle East. The United States, to the 
extent we believe in free elections and human rights, we want 
to overturn the existing political order in the Middle East. So 
does the Muslim Brotherhood in its own way. So do liberal human 
rights activists. So do a lot of people who are profoundly 
different from one another.
    The problem, I think, with Saudi policy sometimes is that 
they conflate all of these things as if they are part of one 
threat whereas we, the United States, do not conflate all these 
things. We think it would be a good thing if dictatorships in 
the region evolve toward a more democratic form of government. 
We are at war with ISIL. And we want to make sure that our 
allies are with us primarily in that fight. We don't want to 
mix it up with all of these other things that are, frankly, 
less legitimate and appropriate from our point of view.
    Ms. Frankel. All right.
    Someone else made a comment about the United States, I 
think, needs to do more than just sell arms to Saudi Arabia. 
There was a comment that we should support Vision 2030. Could 
you tell me what some ideas would be for that?
    Ambassador Feierstein. There are two components to Vision 
2030. One is the economic side. And, of course, there is a 
great deal of interest on the part of the Saudis to see more 
U.S. investment, to see more engagement by the U.S. private 
sector in helping--economic diversification is a big part of 
the Vision 2030. And so the United States and American private 
sector could potentially be a major partner in helping to 
implement those parts of the Vision 2030. But Vision 2030, of 
course, goes beyond that and also includes a major fundamental 
reshaping of what has always been understood as a social 
contract in Saudi Arabia between government and the citizens, 
the idea being that government would provide cradle-to-grave 
services. They would provide free health, free education, 
housing, jobs as the major employer. And so they are 
fundamentally reshaping that, and they are moving away from 
that and now talking about the role of the private sector as 
the major employer. They are reducing subsidies. They are doing 
a lot of other things that make them less of that cradle-to-
grave social support, social safety net, that they used to be. 
And, therefore, that is also changing the way the people relate 
to the government. If you are not going to provide the 
services, the understanding before was that the people would 
stay out of government, they would stay out of public policy, 
in exchange for all of these services. If you are not going to 
provide the services, then there is an assumption that the 
people will have a greater say in the public policy and some of 
the basic decisions that the government is going to make.
    And so we can help foster that. We can help through some of 
our programs. We can help build up the capacity on the part of 
people to understand how to engage, what are the roles of 
nongovernmental organizations in civil society, and other 
things that would allow them to be a stronger voice, a stronger 
advocate for political liberalization, hopefully.
    Ambassador Westphal. Can I add one point to this that I 
think is even more significant beyond the economic piece? And 
that is the social/cultural reforms that the transformation is 
putting forth. So the latest version of this is that women, who 
must have a guardian approve all of their legal actions, their 
education, their travel, their visa, everything, now there is a 
new law that was just passed a few weeks ago that allows women 
now to not use a guardian, to be free. Not in every single 
case, but--yeah. It was just approved. No? That is what I 
heard.
    Ms. House. The King asked for a review of all the 
ministries to list their restrictions where they had asked a 
woman to have a guardian. But he has not yet removed. You still 
have to have a guardian to get out of prison. You have to have 
a guardian to get married, which most women say is totally un-
Islamic. So there is a review. But there is not yet a change.
    The hope is, by women, that the fact of asking for the 
review means the change will come. And there are people who 
believe that after Ramadan ends at the end of June, there is a 
chance women will be allowed to drive. You know, there is a 
hope of a lot of social change. And there is already--as I was 
trying to say, there is some social change. I probably didn't 
do a good job describing it. But they understand that they 
can't expect people to manage their own lives in this new 
private economy----
    Ms. Ros-Lehtinen. Thank you.
    Ms. House [continuing]. With the government controlling 
everything.
    Ms. Ros-Lehtinen. Wild times in the Kingdom.
    Thank you, Ms. Frankel.
    Mr. Meadows, who is my occasional Member of Congress when I 
go with my family for a week in North Carolina, and now you are 
threatening to take that away, you and the Freedom Caucus. Come 
on.
    Mr. Meadows. Well, based on past history, I think your 
August recess is probably safe.
    Ms. Ros-Lehtinen. All right. Look forward to being in North 
Carolina.
    Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chair. Thank each of you for 
your testimony.
    So let me make sure I have got this right. Ms. House, you 
are supportive of the $110 billion arms deal to the Saudis. Is 
that correct?
    Ms. House. Yes. I mean, I am not an arms expert. But, yes, 
selling weapons so long as----
    Mr. Meadows. You and I don't need an interpreter. We use 
three or four syllables for every word, don't we? Thank you.
    All right. Mr. Malinowski, you are opposed to it. Is that 
correct?
    Mr. Malinowski. I am opposed to the PGMs. First of all----
    Mr. Meadows. And you are opposed to that for what reason?
    Mr. Malinowski. I am opposed to it because it is an 
offensive weapon that is being used right now in ways that we 
have advised, repeatedly, the Saudis not to use, to strike 
targets that are exacerbating----
    Mr. Meadows. So, apparently, for humanitarian purpose--let 
me make sure I understand this. Because, right now, they have 
knocked out bridges and so forth in Yemen and that is why you 
are opposed to them. Is that correct?
    Mr. Malinowski. We have given them lists of targets that 
they should not strike. And they have continued to strike those 
targets, at least up until the point where I was an Assistant 
Secretary of State. I think, Congressman----
    Mr. Meadows. So, if that is the case, would you not agree 
that the strategic ability of those arms has nothing to do with 
whether they hit a bridge or not?
    Mr. Malinowski. I think that----
    Mr. Meadows. Because you are making a circular reasoning. 
You are saying you don't want them to be strategically able to 
do it, but they are going to do it regardless. So what does 
that have to do with the arms sales?
    Mr. Malinowski. I think it makes the United States 
complicit in something that we have tried to stop.
    Mr. Meadows. So it would be better if we sold them 
nonstrategic arms where they could bomb everything and 
eventually get the bridge?
    Mr. Malinowski. Absolutely not. I think we should sell them 
defensive arms that are----
    Mr. Meadows. Because Mr. Feierstein said that it actually 
helped, from a humanitarian standpoint----
    Mr. Malinowski. It does not.
    Mr. Meadows [continuing]. Make sure that their strategic 
target actually gets hit the first time instead of the second 
or third time.
    Mr. Malinowski. Well, we don't want it to be hit. That is 
the point.
    Mr. Meadows. But my whole point is, it doesn't matter; if 
they are going to hit it regardless, I mean, whether it is a 
strategic weapon or not, they are still going to take out the 
bridge.
    Mr. Malinowski. Well, perhaps, we should then sell these 
weapons to the Russians in Syria, because, after all----
    Mr. Meadows. All right. Well, let's go there. Because what 
you are suggesting--let's go there. So you are suggesting that 
we should stay out of it. Is that correct?
    Mr. Malinowski. Absolutely not----
    Mr. Meadows. We should take a neutral position as it 
relates to Qatar versus Saudi. I think that was your sworn 
testimony. Is that correct?
    Mr. Malinowski. Qatar versus Saudi, yes. I think we should 
do what Secretary Tillerson is trying to do, which is to try to 
resolve this----
    Mr. Meadows. So they are exactly the same as they relate to 
their support for terrorism?
    Mr. Malinowski. No. They are not exactly the same.
    Mr. Meadows. So then why should we take a neutral position?
    Mr. Malinowski. Because we have an interest--first of all, 
we have a very strong alliance relationship with both 
countries.
    Mr. Meadows. I agree. Actually, I have got to go, because I 
have got to meet the Qatari Ambassador here in just a couple of 
seconds. So let me ask you this: How do we send, according to 
your testimony, a very clear signal on what we should or should 
not tolerate when we take a neutral position?
    Mr. Malinowski. I think we can send a very strong signal to 
both countries about what we do and do not tolerate, as I think 
we have been doing.
    Mr. Meadows. But your whole testimony has said that we need 
to make sure that we are clear. And when we take a neutral 
position, that does not clarify our position from a diplomatic 
standpoint. So how do we take a clear position from a neutral 
point of view?
    Mr. Malinowski. We should not be neutral with respect to 
behavior by either country that we disprove of, but that does 
not mean that we necessarily should be supporting a blockade or 
potentially acts of war by one country against another; that 
would not be in our interest to support.
    Mr. Meadows. All right. So how do we send a clear message? 
What would be the message I should take to the Ambassador here 
in just a couple of minutes? What should be the message that I 
take it from a non-neutral point of view? Because I am not 
neutral in this. You know, I think we have to be very clear 
that, when there is an enemy, we expect our allies to support 
our position. Wouldn't you agree with that?
    Mr. Malinowski. I absolutely do. And I think----
    Mr. Meadows. I thought you would. That was a softball. So 
what should I tell them?
    Mr. Malinowski. I think if you have got a concern, and I 
assume you do, about Qatari----
    Mr. Meadows. I am assuming that you don't.
    Mr. Malinowski. I do.
    Mr. Meadows. Okay. So we share a concern.
    Mr. Malinowski. I don't approve of anyone who supports 
Hamas.
    Mr. Meadows. All right. So, if we are doing that, what 
should be the message?
    Mr. Malinowski. The message should be: Cut it out. Now, 
that doesn't mean that we support a blockade by Saudi Arabia 
against a country that is hosting our troops in the middle of a 
war against ISIS when Saudi Arabia also has some of those 
problems, which I hope you will raise with the Saudi Ambassador 
when you meet him.
    Mr. Meadows. Well, I have. And I will be glad to do that. 
This is one of the reasons why I am in Congress. So let's look 
at that. If we are saying, ``cut it out,'' how do we enforce 
that?
    Mr. Malinowski. I----
    Mr. Meadows. Is it just a phone call and all of a sudden a 
Member from North Carolina says, ``cut it out,'' and they are 
going to do that?
    Mr. Malinowski. I think it is pretty clear, given the 
stakes involved in this crisis, that it is extremely important 
to both Qatar and Saudi Arabia and the UAE and other countries 
in the region to have the support of the United States. And I 
think we should be very stingy----
    Mr. Meadows. So we should threaten that they won't have the 
support?
    Mr. Malinowski. We should be very stingy in offering that 
support to both Qatar and to Saudi Arabia and focus on being 
supportive of the efforts of Secretary Tillerson. I have been 
critical of him on other things. But I think he is doing the 
right thing here.
    Mr. Meadows. But how do we distinguish--you know, you are 
saying be neutral. If one is doing a better job than the other, 
then we can't be neutral, Mr. Malinowski.
    Mr. Malinowski. You have to be a mediator. And that is what 
this situation calls for. It is a mediation between two sides 
on the opposite side of a dispute. If you go into that and you 
say, ``I am on their side 100 percent,'' you can't be a 
mediator.
    Mr. Meadows. I don't think anybody sees us in that form.
    I yield back, Madam Chair.
    Ms. Ros-Lehtinen. What a great hearing. Thank you, Mr. 
Meadows.
    Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chairman.
    Again, I want to thank the witnesses for your testimony, 
for being here, and for your work and the conversation we are 
having on, clearly, not a simple issue.
    Ambassador Feierstein, you say in your testimony that Saudi 
Arabia--I am going to quote you--are replicating a similar 
hopeful moment from 8 years earlier and--call it a reset. Where 
do you see them making a mistake, if you do, in this 
hopefulness that they sought from 8 years ago?
    Ambassador Feierstein. Well, I think that, 8 years ago, in 
2009, the Saudis as well as many of the other states in the 
region, were very frustrated with the Bush administration, 
frustrated with the mismanagement of the Iraq invasion and 
occupation, as well as some of the assertions by either members 
of the Bush administration or those associated with them 
concerning a very aggressive policy of regime change, of 
structural political change in the region that might be imposed 
through force.
    So, when President Obama came into power, there was a sense 
that he was going to change the approach. He made a very well-
received speech at Cairo University in 2009 where he talked 
about a new kind of relationship between the United States and 
the region, where he had pledged to withdraw forces from Iraq. 
And so they saw that as an antidote, if you will, to the things 
that they disliked about the Bush administration.
    As we went along, some of the issues that we have discussed 
over the course of this hearing began to change their 
perception of the Obama administration. And so the unhappiness 
about the way Obama was addressing things--whether we are 
talking about the Arab Spring, throwing Hosni Mubarak under the 
bus, if you will, a perception that was widely held in the 
region, unhappy about what we were doing in Syria, unhappy, as 
I think Ambassador Westphal outlined, not so much about the 
JCPOA but about what they saw as the failed commitment of the 
Obama administration to address these other issues. That was 
really what the problem was. It was that the Obama 
administration had basically said: If you support us on the 
JCPOA, if you go along with this, we will pledge that we will 
continue to take a very strong position on Iran's other 
activities, its expansionism, its support for terrorism, its 
support for a number of other things. And then they believed 
that the Obama administration didn't do that.
    So now we have a new administration in Washington which is 
promising to basically return or to repair some of the things 
that they hated about Obama. So we are going back to a very 
strong defense and security cooperation relationship. We are 
supporting them on Yemen. We are not going to press them on 
human rights. Those things make them hopeful.
    Mr. Schneider. Just because I have only limited time, I 
understand--if I can turn to you, Mr. Malinowski, you talk 
about--in this reset, I suspect that some of the frustration 
the Saudis had with previous administrations is that we came 
with expectations, that we came with certain priorities and 
values that reflected our interests. And you have raised the 
concern that we are witnessing something different this time, 
again, from your written testimony, and a policy rebalance that 
may not necessarily serve our national interests and may leave 
us with challenges. I was hoping you could expand on that a 
little bit.
    Mr. Malinowski. Well, I was trying to put this in a more 
global context.
    I think how we should engage with Saudi Arabia is a 
difficult question that we have debated within certain limits 
for many years. It is a close ally. We have to be engaged with 
them on a lot of different issues. We have concerns about some 
of their conduct domestically and internationally. We have to 
balance these things.
    Ambassador Feierstein and I, we had dozens of conversations 
about this. When we served, we usually agreed. Sometimes we had 
a different emphasis. That is very normal. What I find very 
striking about the direction that the Trump administration has 
gone in is that it seems that the President at least has simply 
a far greater comfort level dealing with authoritarian, family-
run regimes in the Middle East than he does with our closest 
democratic allies in the world that have fought and bled with 
us, that share our values, that contribute everything they 
possibly can to our common security. And I think that contrast 
is creating questions around the world that--you know, people 
are wondering, what do we stand for, and who do we stand with, 
and has that fundamentally changed?
    Mr. Schneider. I agree with you. And I have the concern of, 
if we don't stand by our principles and values, then people 
can't look to our Nation and have a clear sense of who we are 
and what we are trying to achieve domestically and 
internationally. That sends very dangerous signals to the rest 
of the world. So I thank you for that.
    I know I am out of time. So I appreciate the extended time. 
I will just add--and for, perhaps, written consideration--that 
the arms sales you all have talked about before and the threat 
it poses to our closest ally, most strategic ally in the 
region, Israel, I think it is imperative for the administration 
to make very clear that we will ensure and protect Israel's 
qualitative military edge, not just in the context of selling 
these weapons to Saudi Arabia, but, God forbid, any of these 
weapons were to get into the hands of nonstate actors.
    Ms. Ros-Lehtinen. Excellent point.
    Thank you, Mr. Schneider.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    Thank you, again, to our witnesses.
    My first question, Ambassador Feierstein, is, what do you 
think is Saudi Arabia's endgame in Yemen? It doesn't seem as if 
they have been able to militarily prevail or been successful in 
bringing about a diplomatic solution. What do you think is the 
endgame?
    Ambassador Feierstein. Well, I think that is actually the 
big problem, is that there is no clear endgame. I think that 
the Saudis, like we, in 2015, thought that we would be able to 
very quickly restore stability, have the Hadi government go 
back to power in Sana'a, and continue the political transition 
there. It hasn't worked out that way.
    Like Ambassador Westphal, I believe that the Saudis have 
been looking for a political way out of this conflict for at 
least the last year or year-plus. They entered into a dialogue 
with the Houthis to try to bring the Houthis away from the 
Iranian relationship and to support the political dialogue. I 
think we were all very hopeful last summer that there was going 
to be a political agreement in Kuwait in the negotiations led 
by the U.N. That failed, and we have been trying to get back to 
that point ever since.
    I still believe that the Saudis would be very interested in 
and would welcome a political way forward. But what we need to 
focus on is how we can get back to that U.N. negotiation and 
hopefully have a different outcome this time.
    Mr. Cicilline. Thank you.
    Mr. Malinowski, you looked like you wanted to add 
something.
    Mr. Malinowski. No.
    Mr. Cicilline. So I think we are all familiar with the 
horrific human rights record of Saudi Arabia: Under sharia law, 
beheading protesters and condemning young people to death for 
crimes they committed as children, flogging bloggers for 
perceived insults.
    And, Mr. Malinowski, I would ask you whether you have seen 
any evidence of any improvement in their human rights record, 
and what is the impact of the President agreeing to an arms 
sale without attempting to use that desire from the Saudis as a 
way to leverage or at least to raise some expectation that they 
improve their behavior with respect to universal human rights?
    Mr. Malinowski. I agree with my colleagues here that there 
have been some modest signs of potential improvement. I am 
qualifying that very carefully. You have less of the religious 
police out on the streets abusing people. There is this 
potential move on the guardianship system that Ms. House 
described.
    But, fundamentally, these problems do persist. And although 
I think 95 percent, 98 percent, of the dynamic that may lead to 
change is going to come from within Saudi Arabia, I do think 
there is a role for Saudi Arabia's friends in raising these 
issues and debating them publicly to create, you know, in the 
minds of those in Saudi Arabia who care about the Kingdom's 
reputation the sense that they have to keep moving in this 
direction. And I think it has been efficacious on specific 
cases. No question about that.
    In terms of the arms sale, I have never said that we should 
hold up arms sales to Saudi Arabia because of their general 
human rights record. I am a pragmatist about this. But I do 
think where a specific weapons system is being used in the 
commission of human rights abuses, then I think we have a 
different kind of obligation and have to have a different kind 
of debate.
    Mr. Cicilline. Thank you.
    A significant portion of global terrorist funding emanates 
from Saudi Arabia, and I know that, in the past, the United 
States' officials have been frustrated at the limited capacity 
of Saudi authorities to clamp down on those funding streams. 
And I wonder whether in anyone's judgment the situation has 
improved over the last few years. Has the United States been 
supportive of Saudi efforts to rein in terrorist financing? 
What more can we do? What more can they do? But it appears to 
remain a serious problem.
    Ambassador, looks like you have some thoughts.
    Ambassador Feierstein. Can I just say, I was the number two 
in our bureau of counterterrorism in 2006 and 2007 when we were 
very focused at that time on the issue of counterterror 
finance. We had strong concerns about the records of all of the 
states in the Gulf about their ability, their willingness to 
actually intercede effectively and aggressively to try to cut 
off the flow of financing to some of these violent extremist 
organizations. I would have to say that, in my own view, while 
we have not had success in any particular, you know, complete 
way, all of them are better today than they were 10 years ago. 
All of them have taken steps. I do believe, actually, that the 
President's approach in Riyadh, when he was speaking to the 
assembled Arab and Islamic leaders, was the right approach, 
which is the need to build up a broad-based coalition, build a 
consensus that all of the States need to do a better job, need 
to take on this issue aggressively. I think that that is the 
right way to go forward.
    Unfortunately, where we are right now is that that effort 
to build the coalition is being blown apart by this conflict 
that we have right now with Qatar. And, therefore, I agree 
absolutely with Assistant Secretary Malinowski and with my 
other colleagues that what we need to do is help resolve that 
issue peacefully and get back to that coalition and consensus-
building effort that we were engaged in just a few weeks ago.
    Mr. Cicilline. Thank you.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    And now we turn to the Twitter ninja of the House par 
excellence, my friend, Mr. Lieu, of California.
    Mr. Lieu. Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. That Twitter game is strong.
    Mr. Lieu. Thank you.
    I don't think any of us here objects to the United States 
assisting our ally Saudi Arabia. But what many Members of 
Congress do object to on a bipartisan and bicameral basis is 
that the Saudi Arabia-led military coalition has committed 
multiple war crimes in Yemen, and the U.S. is aiding and 
abetting in those war crimes. In addition to refueling some of 
these Saudi jets that strike civilians, we have also sold them 
weapons that have struck civilians. And this freaked people out 
so much that the State Department lawyers actually started 
looking at, can our military personnel and other personnel be 
liable for war crimes under international law for this 
assistance?
    So my first question to you, Secretary Malinowski, is did 
the State Department attorneys finish that review or come to a 
conclusion, do you know, before you left?
    Mr. Malinowski. I would say, before I left, they raised 
these concerns and made them known to policymakers. I don't 
know whether work has continued on that effort.
    Mr. Lieu. The reason that the Obama administration stopped 
the sale of precision-guided munitions was because the Saudi-
led military coalition was using these munitions to target 
civilians. It is not as if they were trying to hit a tank and 
they accidentally hit a hospital. They very precisely hit 
hospitals. They very precisely hit schools. They very precisely 
hit a wedding party with lots of civilians. They very precisely 
hit a large funeral twice with munitions. So the problem is we 
are now enabling the Saudi Arabia coalition to precisely kill 
civilians. And that is what was such a huge problem.
    And now that the Trump administration wants to reverse, Ted 
Yoho and I, and other bipartisan Members of Congress, wrote a 
very simple letter to the State Department and Department of 
Defense basically asking, hey, you just tell us, has the 
conduct of the Royal Saudi Air Force changed so that they are 
no longer precisely hitting civilians with weapons the United 
States sells them? That letter is dated April 6. So we got a 
response on April 26 from the Secretary of Defense, response on 
May 2 from the Secretary of State. They basically were 
nonresponsive letters.
    So, Madam Chairwoman, I would like to enter these letters 
in the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Lieu. I want to ask the panel, have you seen changes in 
the operative conduct of their Saudi-led military coalition so 
that they are not striking civilians anymore? Or do they 
continue to do the same thing?
    Ambassador Feierstein. Mr. Lieu, you and I had an 
opportunity to have a conversation about these issues several 
times when I was still with the State Department. And I have to 
say that I disagree with the premise of your question. I don't 
believe that the Saudis did precisely hit civilians or 
specifically targeted civilians.
    Mr. Lieu. That is wrong. In the funeral case, the Saudi 
Arabian military acknowledged they hit that funeral. They 
assumed there might be some rebels there, but they intended to 
strike that funeral. They intended to hit it, and they did.
    Ambassador Feierstein. Mr. Lieu, if you recall exactly what 
the explanation was, they did acknowledge that they hit the 
funeral. And I have to say that friends of mine were killed in 
that funeral home. So I feel very strongly about it.
    Mr. Lieu. Right. And they weren't trying to hit a tank. 
They were trying to hit that funeral, and they did.
    Ambassador Feierstein. But they acknowledged, sir, that 
they were basing that on the basis of wrong intelligence. They 
acknowledged that they hit it, but that it was a mistake that 
was based on poor intelligence that they had received, that 
that was actually a military----
    Mr. Lieu. Right. And the weapons enabled that to happen. 
Look, if it is one funeral, I get it. Maybe if it is two 
funerals, I get it. When it is 70-some air strikes documented 
by multiple organizations, then it is a pattern of either gross 
incompetence or direct targeting of civilians. So I am just 
asking, has that conduct changed?
    Ambassador Feierstein. I would have to say, again, that the 
issue was not that they were targeting. And I think----
    Mr. Lieu. In that case, they were targeting their funeral. 
They were targeting the funeral. Is that correct?
    Ambassador Feierstein. They acknowledge that they hit the 
funeral based on wrong intelligence.
    Mr. Lieu. So they were targeting the funeral, and they hit 
it.
    Ambassador Feierstein. But they did not realize it was a 
funeral. They did not target----
    Mr. Lieu. They hit a Doctors Without Borders hospital, 
right?
    Ambassador Feierstein [continuing]. They understood it was 
a military target.
    Mr. Lieu. They hit a Doctors Without Borders hospital. They 
intended to hit that hospital, correct?
    Ambassador Feierstein. And I think if you go back and look 
at the bipartisan investigations that have been done on many of 
those instances----
    Mr. Lieu. They weren't bipartisan. They were done by the 
Saudi Arabian military itself.
    Ambassador Feierstein [continuing]. You would see that, in 
fact, the situation was not the way it was portrayed in the 
press.
    Mr. Lieu. What was the bipartisan investigation you are 
talking about?
    Ambassador Feierstein [continuing]. And that there is----
    Mr. Lieu. What is the bipartisan investigation you are 
talking about?
    Ambassador Feierstein. There is a group of people who have 
undertaken investigations, at the behest of the Saudis, who are 
not Saudi and who take a look at these things and have come 
back and issued reports. And those reports are available 
publicly. And you can see that, in some of these instances, 
what was considered to be a strike on a Medecins Sans 
Frontieres hospital or other kinds of targets, that, in fact, 
there were legitimate military targets that were colocated or 
very nearby and that they were not targeting these facilities, 
but, in fact, there was collateral damage from hits on 
legitimate targets. So this is a very complicated----
    Mr. Lieu. All right. So my time is up. So I just want to 
make sure that you are really saying this. You are saying the 
strike on a Doctors Without Borders hospital was a legitimate 
strike?
    Ambassador Feierstein. I think that it was not a strike on 
a Doctors Without Borders hospital. It was a strike on a----
    Mr. Lieu. They pretty much demolished it.
    Ambassador Feierstein [continuing]. Colocated facility.
    Mr. Lieu. I yield.
    Ms. Ros-Lehtinen. Thank you, Mr. Lieu.
    And I think Mr. Deutch wanted to make a statement.
    Mr. Deutch. I did. I was just hoping, Madam Chairman, you 
might introduce the newest members of our subcommittee who are 
here with us today.
    Ms. Ros-Lehtinen. I am so pleased to be joined by two of 
our eldest granddaughters: Morgan, who will 8 on July 15th, and 
Caroline, who just turned 5 last week, so she said she is going 
to be 6.
    And, with that, thank you, Mr. Deutch.
    With that, our subcommittee will now be adjourned.
    Excellent panelists. Excellent questions.
    Thank you to the audience.
    [Whereupon, at 11:58 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
	 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         

Material submitted for the record by the Honorable Ileana Ros-Lehtinen, 
 a Representative in Congress from the State of Florida, and chairman, 
            Subcommittee on the Middle East and North Africa



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Material submitted for the record by the Honorable Ted Lieu, a 
        Representative in Congress from the State of California



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
